<html>
<title> - TURNING THE TORTOISE INTO THE HARE: HOW THE FEDERAL GOVERNMENT CAN TRANSITION FROM OLD ECONOMY SPEED TO BECOME A MODEL FOR ELECTRONIC GOVERNMENT</title>
<body><pre>[House Hearing, 107 Congress]
[From the U.S. Government Printing Office]



 
  TURNING THE TORTOISE INTO THE HARE: HOW THE FEDERAL GOVERNMENT CAN 
  TRANSITION FROM OLD ECONOMY SPEED TO BECOME A MODEL FOR ELECTRONIC 
                               GOVERNMENT
=======================================================================

                                HEARING

                               before the

           SUBCOMMITTEE ON TECHNOLOGY AND PROCUREMENT POLICY

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 21, 2002

                               __________

                           Serial No. 107-164

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform









                           U.S. GOVERNMENT PRINTING OFFICE
85-123                               WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001








                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       MAJOR R. OWENS, New York
ILEANA ROS-LEHTINEN, Florida         EDOLPHUS TOWNS, New York
JOHN M. McHUGH, New York             PAUL E. KANJORSKI, Pennsylvania
STEPHEN HORN, California             PATSY T. MINK, Hawaii
JOHN L. MICA, Florida                CAROLYN B. MALONEY, New York
THOMAS M. DAVIS, Virginia            ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
BOB BARR, Georgia                    DENNIS J. KUCINICH, Ohio
DAN MILLER, Florida                  ROD R. BLAGOJEVICH, Illinois
DOUG OSE, California                 DANNY K. DAVIS, Illinois
RON LEWIS, Kentucky                  JOHN F. TIERNEY, Massachusetts
JO ANN DAVIS, Virginia               JIM TURNER, Texas
TODD RUSSELL PLATTS, Pennsylvania    THOMAS H. ALLEN, Maine
DAVE WELDON, Florida                 JANICE D. SCHAKOWSKY, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
ADAM H. PUTNAM, Florida              DIANE E. WATSON, California
C.L. ``BUTCH'' OTTER, Idaho          STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia                      ------
JOHN J. DUNCAN, Jr., Tennessee       BERNARD SANDERS, Vermont 
------ ------                            (Independent)


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director

           Subcommittee on Technology and Procurement Policy

                  THOMAS M. DAVIS, Virginia, Chairman
JO ANN DAVIS, Virginia               JIM TURNER, Texas
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
DOUG OSE, California                 PATSY T. MINK, Hawaii
EDWARD L. SCHROCK, Virginia

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
                    Melissa Wojciak, Staff Director
              Victoria Proctor, Professional Staff Member
                          James DeChene, Clerk
          Mark Stephenson, Minority Professional Staff Member









                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 21, 2002...................................     1
Statement of:
    Hite, Randy C., Director, Information Technology Systems 
      Issues, U.S. General Accounting Office, accompanied by Dave 
      McClure, Director, Information Technology Management 
      Issues, U.S. General Accounting Office; and Mark Forman, 
      Associate Director for Information Technology and E-
      Government, Executive Office of the President, OMB.........    12
    Holcomb, Lee, CIO, Co-Chair, Federal Architecture and 
      Infrastructure Committee, Federal CIO Council, NASA; Debra 
      Stouffer, Deputy Chief Information Officer for IT Reform, 
      Co-Chair, Best Practices Committee, Federal CIO Council, 
      HUD; Mayi Canales, Deputy CIO, E-Government Portfolio 
      Coordinator, Federal CIO Council, Department of Treasury; 
      Laura Callahan, Deputy CIO, Information Technology Center, 
      Co-Chair, Workforce & Human Capital for IT, Federal CIO 
      Council, Department of Labor; Janet Barnes, CIO, OPM; and 
      Lloyd Blanchard, Chief Operating Officer, Office of 
      Management & Administration, Office of the Associate Deputy 
      Administrator, Small Business Administration...............    68
Letters, statements, etc., submitted for the record by:
    Barnes, Janet, CIO, OPM, prepared statement of...............   118
    Blanchard, Lloyd, Chief Operating Officer, Office of 
      Management & Administration, Office of the Associate Deputy 
      Administrator, Small Business Administration, prepared 
      statement of...............................................   136
    Callahan, Laura, Deputy CIO, Information Technology Center, 
      Co-Chair, Workforce & Human Capital for IT, Federal CIO 
      Council, Department of Labor, prepared statement of........   108
    Canales, Mayi, Deputy CIO, E-Government Portfolio 
      Coordinator, Federal CIO Council, Department of Treasury, 
      prepared statement of......................................    88
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................     4
    Forman, Mark, Associate Director for Information Technology 
      and E-Government, Executive Office of the President, OMB, 
      prepared statement of......................................    46
    Hite, Randy C., Director, Information Technology Systems 
      Issues, U.S. General Accounting Office, prepared statement 
      of.........................................................    15
    Holcomb, Lee, CIO, Co-Chair, Federal Architecture and 
      Infrastructure Committee, Federal CIO Council, NASA, 
      prepared statement of......................................    71
    Stouffer, Debra, Deputy Chief Information Officer for IT 
      Reform, Co-Chair, Best Practices Committee, Federal CIO 
      Council, HUD, prepared statement of........................    82
    Turner, Hon. Jim, a Representative in Congress from the State 
      of Texas, prepared statement of............................    10


  TURNING THE TORTOISE INTO THE HARE: HOW THE FEDERAL GOVERNMENT CAN 
  TRANSITION FROM OLD ECONOMY SPEED TO BECOME A MODEL FOR ELECTRONIC 
                               GOVERNMENT

                              ----------                              


                        THURSDAY, MARCH 21, 2002

                  House of Representatives,
 Subcommittee on Technology and Procurement Policy,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2 p.m. in room 
2154, Rayburn House Office Building, Hon. Tom Davis of Virginia 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis and Turner.
    Mr. Davis. Good afternoon and welcome to the Subcommittee 
on Technology and Procurement Policies oversight hearing on 
Electronic Government in Enterprise Architecture.
    Before I continue, I ask unanimous consent that all 
Members' and witnesses' written opening statements be included 
in the record. Without objection, so ordered.
    I ask unanimous consent that all articles, exhibits and 
extraneous or tabular material referred to be included in the 
record. Without objection, so ordered.
    After a number of years in which there have been so many 
calls for the Federal Government to reinvent its delivery of 
services by creating a digital government, this hearing will 
specifically examine both the context and the direction of 
electronic government at the Federal level. We will do this by 
examining the e-government and IT initiatives that are being 
developed at the direction of the President by the Office of 
OMB through the newly created Office of Associate Director for 
Information Technology and E-Government, a position currently 
held by Mr. Mark Forman. We will also be hearing from GAO about 
the use of enterprise architecture across the government and 
how enterprise architecture is being implemented by OMB and by 
the managing partner agencies charged with carrying out the 24 
e-government initiatives approved by the President's Management 
Council last fall.
    In addition, the subcommittee will be hearing from the same 
Federal agencies regarding their effort to streamline their 
respective information resources management infrastructure in 
order to improve the effectiveness and efficiency of government 
processes in support of electronic government.
    As electronic commerce and e-business transactions become 
commonplace, providing for end to end transactions, the demand 
for electronic government has increased. In August 2000, a 
Harris/ Teeter Poll conducted for KPMG and the Council for 
Excellence in Government found that 75 percent of the public 
expects the Internet to improve its ability to get information 
from Federal agencies and 60 percent expect e-government to 
have a strong, positive effect on overall government 
operations.
    In 2000, Mr. Turner and I each introduced legislation 
separately that would have established a Chief Information 
Officer [CIO] for the Federal Government as an independent 
Cabinet level office. In considering that legislation in a 
hearing before the then-Subcommittee on Government Management, 
Information and Technology in September 2000, we learned about 
the problems the Federal Government is facing in transforming 
itself from an organization that manages information in a 
discrete, stovepipe fashion to one that simplifies and unifies 
information agencies government-wide. Those challenges 
potentially hinder the Government's ability to reap the cost of 
service benefits we hope to achieve through IT modernization 
efforts and employment of electronic government.
    Congressman Turner has introduced legislation in this 
Congress to create the Office of CIO within OMB and establish 
an e-government fund. During his first year in office the 
President established electronic government as one of the five 
key elements of his management and performance plan. As the 
administration's leading Federal e-government executive, Mr. 
Forman is responsible for carrying out the President's goal of 
developing a citizen-centric government through the use of the 
Internet and for formulating the Federal Government's IT 
policy.
    To carry out this objective, Mr. Forman has led an 
interagency task force since July 2001, whose purpose is to 
identify high payoff e-gov opportunities to achieve strategic 
improvements in citizen access to information, reduce burdens 
on businesses, strengthen intergovernmental relationships, and 
advance internal government efficiency.
    In that vein, Mr. Forman has moved forward with the 
administration's Enterprise Information Management and 
Integration Initiative, using the principles of ``unify and 
simplify'' in identifying e-government priorities. In October, 
the President's Management Council selected 23 cross-agency e-
government initiatives for funding, and added a 24th payroll 
processing initiative this past January. Last month, OMB issued 
its E-Government Strategy Report, which lays out the 
implementation road map for developing and deploying those 24 
initiatives. In addition to gaining a better understanding 
about the e-government initiatives and plans for 
implementation, the subcommittee will also take this 
opportunity to hear from GAO on its recent report on the use of 
enterprise architecture by the Federal Government.
    As an essential tool for effectively and efficiently 
engineering business processes and for implementing and 
evolving their supporting systems, enterprise architecture is 
regarded by many as a fundamental component of IT modernization 
and, in turn, of the implementation of electronic government. 
Transforming our government stovepipe information structure to 
a cost- and process-efficient network is critical to the 
successful deployment of the administration's 24 e-government 
initiatives, and IT modernization efforts overall. Yet, if 
these objectives are pursued without determining in advance the 
underlying architecture, we could be undermining our goal of 
better utilizing technology across the traditional boundaries 
of bureaucracy.
    We will be using this forum to learn from Mr. Forman, and 
the lead agency managers, of the selection of the 24 e-
government initiatives on how they are using EA principles to 
approach the creation and deployment of these initiatives. We 
will also learn how agencies are using IT overall to retool 
their information management and architecture to achieve cross-
functional integration that results in efficiency and 
accountability enterprise-wide.
    We will review how Federal agencies address enterprise-wide 
issues that have traditionally been dealt with bureau by bureau 
or department by department. We will hear how they are using EA 
principles to guide their modernization efforts. In addition, 
information security is an essential component of any 
successful electronic government effort. The citizen and 
private sector confidence in the protection and dissemination 
of information shared by the Government is equally critical. 
Therefore, as part of this discussion, we would like to 
understand the agencies' processes for identifying and 
implementing proper security and privacy policies for 
information systems, both overall and in respective systems 
that will be used for e-government initiatives.
    Throughout the past year, this subcommittee has been 
committed to exploring ways the Government can obtain the best 
value for taxpayer dollars while providing the most efficient 
services to citizens. This hearing will be no different in 
asking how the Government is reforming itself with respect to 
IT investments in the information infrastructure that will 
support electronic government. We will explore future 
legislative initiatives that will facilitate cross-agency 
cooperation for simplifying and unifying redundant business and 
architecture, particularly in support of e-government 
initiatives.
    Today, the subcommittee will hear testimony from the 
following witnesses: Mr. Randy Hite, Director, IT Systems 
Issues, GAO, accompanied by Mr. Dave McClure, Director, IT 
Management Issues, GAO; Mr. Mark Forman, Associate Director, 
Information Technology and E-Government, OMB; Mr. Lee Holcomb, 
Co-Chair, Federal Architecture and Infrastructure Committee, 
Federal CIO Council and CIO at NASA; Ms. Debra Stouffer, 
Federal Enterprise Architecture Program Manager on detail to 
OMB and Deputy CIO at HUD on temporary leave; Ms. Mayi Canales, 
Deputy CIO, Department of Treasury; Dr. Laura Callahan, Deputy 
CIO, Department of Labor; Ms. Janet Barnes, CIO, OPM; and Dr. 
Lloyd Blanchard, CIO, Small Business Administration.
    I will yield to Representative Turner for his opening 
statement.
    [The prepared statement of Hon. Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 85123.001
    
    [GRAPHIC] [TIFF OMITTED] 85123.002
    
    [GRAPHIC] [TIFF OMITTED] 85123.003
    
    [GRAPHIC] [TIFF OMITTED] 85123.004
    
    [GRAPHIC] [TIFF OMITTED] 85123.005
    
    Mr. Turner. Thank you.
    I appreciate the hearing we are having today and I 
appreciate your leadership in this particular area. I think all 
of us fully understand the information technology revolution 
has transformed our society and that it has certainly 
transformed the way we do business in the private sector and in 
government. I also think we have the commonly held view that in 
government, we have not moved as rapidly in the transformation 
as has the private sector. It is important that we do so, not 
only because we can save millions of taxpayer dollars if we do, 
but we can make government more accessible and user friendly 
than it is today.
    This committee had the opportunity to hear a witness in a 
previous hearing, Mr. Tom Siebel of the Siebel Corp. He 
presented a bit of testimony that was quite interesting because 
he had reviewed the information available to the various 
agencies of government regarding the terrorists who boarded 
those planes on September 11th and had drawn at least the 
tentative conclusion that perhaps with the better utilization 
of information technology that we would have known enough to 
have prevented that terrible tragedy.
    Not only are we now engaged in an effort to make government 
more efficient, more user friendly, but perhaps to make 
government better able to preserve and protect our own personal 
security. So this is an important topic and one that I feel 
this committee has a very important role in pursuing.
    I think we all understand that we need to make some 
progress and perhaps need legislation. As the chairman 
mentioned, I introduced what is known as the E-Government Act 
of 2001 which was introduced in the Senate by Senator 
Lieberman. That bill as well as the bill the chairman has 
introduced in the past are all designed to try to bring us more 
quickly into the 21st century with regard to our utilization of 
information technology.
    The bill that I introduced with Senator Lieberman was heard 
this morning in the Senate Governmental Affairs Committee and 
reported out in an amended form. I haven't had the opportunity 
to take a look at it but I would say I hope we can all work 
together to move that or something similar to it forward in the 
legislative process.
    I look forward to hearing from the witnesses today, 
particularly Mr. Forman as he outlines for us the efforts that 
the administration is making. I know you are responsible for 
the administration of the E-Government Fund established in the 
President's budget. You direct the CIO Council, advise on 
appointments of those CIOs of various agencies and monitor and 
work with those CIOs. We will look forward to hearing your 
report regarding the E-Government Initiative which I understand 
was recently approved by the President's Management Council.
    I know on our second panel we have several chief 
information officers or deputy CIOs here as well. So this is a 
very timely hearing and again, I thank the chairman for 
scheduling it for us.
    [The prepared statement of Hon. Jim Turner follows:]
    [GRAPHIC] [TIFF OMITTED] 85123.006
    
    [GRAPHIC] [TIFF OMITTED] 85123.007
    
    Mr. Davis. Thank you, Mr. Turner.
    I will call our first panel witnesses, Randy Hite and Mark 
Forman. It is the policy of the committee that all witnesses be 
sworn before you testify.
    [Witnesses sworn.]
    Mr. Davis. To afford sufficient time for questions, if the 
witnesses would try to limit themselves to no more than 5 
minutes. We have your testimony and have looked it over and 
have questions. All written statements will be a part of the 
permanent record.
    I will begin with Mr. Hite followed by Mr. Forman. Welcome, 
and thank you for being here.

 STATEMENTS OF RANDY C. HITE, DIRECTOR, INFORMATION TECHNOLOGY 
SYSTEMS ISSUES, U.S. GENERAL ACCOUNTING OFFICE, ACCOMPANIED BY 
   DAVE MCCLURE, DIRECTOR, INFORMATION TECHNOLOGY MANAGEMENT 
   ISSUES, U.S. GENERAL ACCOUNTING OFFICE; AND MARK FORMAN, 
ASSOCIATE DIRECTOR FOR INFORMATION TECHNOLOGY AND E-GOVERNMENT, 
             EXECUTIVE OFFICE OF THE PRESIDENT, OMB

    Mr. Hite. Thank you for the opportunity to participate in 
today's hearing.
    My responsibilities at GAO include our work on enterprise 
architecture and accompanying me today is Dave McClure, whose 
responsibilities include e-government.
    Before summarizing our statement, let me briefly describe 
what enterprise architecture and e-government are in lay terms. 
In a nutshell, enterprise architecture is a high level 
description of how an entity operates today, how it intends to 
operate tomorrow and how it plans to get from today to 
tomorrow. An entity can be an organization such as a Federal 
agency or it can be a functional or mission area that cuts 
across more than one agency such an e-government initiative.
    Also, it is important to understand that this architecture 
is more than merely a technical road map and, in fact, 
describes the entity's operations in both business and 
technology terms. Metaphorically, an enterprise architecture 
can be compared to the plans, models, construction blueprints, 
building codes and materials standards that would be used to 
construct a modern skyscraper.
    Federal e-government refers to a type of business asset or 
resource consisting of people, process and technology that 
leverages the power of digital technologies, particular Web-
based applications so that Federal agencies can better serve 
their four customer bases, those being citizens, private 
businesses, other levels of government and other Federal 
agencies.
    With these definitions as the backdrop, our testimony 
addresses four questions: how can we define and measure the 
state of enterprise architecture and maturity; what is the 
state of maturity in the Federal Government; what role should 
these architectures play in implementing e-government; and what 
leadership steps can OMB take to ensure needed progress is made 
in both of these areas?
    The answer to the first two questions is summarized 
graphically on the briefing board to my right. We also provided 
each of you a handout on this as well. As represented on the 
horizontal axis, we have defined five stages of architecture 
maturity beginning with Stage 1, the lowest level, and 
progressing to Stage 5, the highest level. We have also 
surveyed 116 Federal agencies on their architecture efforts and 
using their responses, have rated and aggregated agencies of 
like maturity levels as represented on the vertical axis.
    As you can see, the state of maturity can best be described 
as work in progress with much left to be accomplished. In 
particular, I would draw your attention to the fact that about 
one-half of the agencies are only at Stage 1, meaning either 
there is no commitment to developing an architecture or the 
architecture efforts underway are ad hoc and do not provide a 
recipe for success. Why is this the case? Our survey results 
point to four interrelated reasons, all of which can be traced 
to a lack of agency head commitment sponsorship.
    These are: one, lack of funding; two, limited management 
understanding; three, parochialism; and four, a shortage of 
skilled staff. Ironically, these are some of the very 
challenges that OMB faces in implementing its portfolio of 24 
initiatives being pursued under the President's management 
agenda to expand e-government.
    Which brings me to the answer to the question to the third 
question our testimony addresses, the role of enterprise 
architecture in implementing e-government. As we testified last 
year, past mistakes in implementing IT solutions remind us of 
the risk going forward. The key to successfully mitigating 
these risks is in employing proven management practices. These 
practices can be viewed as the horse that pulls the cart 
containing the e-government initiatives.
    Historically, however, agencies have all too often put the 
cart before the horse, forging ahead on IT investments before 
putting these management practices in place. OMB's success in 
implementing its e-government initiatives depends in large part 
on not letting this happen. One of these practices, and I 
underscore one, is using enterprise architecture.
    To its credit, OMB's e-government strategy includes an 
architecture project. The real challenge, however, lies ahead 
in actually developing, validating and enforcing the 
architectures which brings me to the answer to the final 
question addressed in our testimony, OMB's leadership steps. 
Clearly, OMB plays a critical leadership role in achieving 
enterprise architecture and e-government progress. Central to 
this role will be ensuring that both agency specific 
investments in IT and governmentwide investments in e-
government are made within the context of these architectures.
    To date, OMB has demonstrated leadership on both fronts but 
the importance of these investments requires it to go further. 
Accordingly, we have made recommendations to OMB aimed at 
strengthening its enterprise architecture leadership to the 
adoption of the maturity framework we developed, use of the 
baseline agency architecture information that we collected, and 
periodic maturation reporting, all with the intent of bringing 
greater attention and thus meaningful progress to this very 
important area.
    While these recommendations were made within the context of 
agency specific architectures and investments, they have 
applicability to OMB-led e-government initiatives as well. We 
encourage OMB to move swiftly in accepting and implementing 
these recommendations.
    This concludes my statement. I will be happy to answer any 
questions.
    [The prepared statement of Mr. Hite follows:]
    [GRAPHIC] [TIFF OMITTED] 85123.008
    
    [GRAPHIC] [TIFF OMITTED] 85123.009
    
    [GRAPHIC] [TIFF OMITTED] 85123.010
    
    [GRAPHIC] [TIFF OMITTED] 85123.011
    
    [GRAPHIC] [TIFF OMITTED] 85123.012
    
    [GRAPHIC] [TIFF OMITTED] 85123.013
    
    [GRAPHIC] [TIFF OMITTED] 85123.014
    
    [GRAPHIC] [TIFF OMITTED] 85123.015
    
    [GRAPHIC] [TIFF OMITTED] 85123.016
    
    [GRAPHIC] [TIFF OMITTED] 85123.017
    
    [GRAPHIC] [TIFF OMITTED] 85123.018
    
    [GRAPHIC] [TIFF OMITTED] 85123.019
    
    [GRAPHIC] [TIFF OMITTED] 85123.020
    
    [GRAPHIC] [TIFF OMITTED] 85123.021
    
    [GRAPHIC] [TIFF OMITTED] 85123.022
    
    [GRAPHIC] [TIFF OMITTED] 85123.023
    
    [GRAPHIC] [TIFF OMITTED] 85123.024
    
    [GRAPHIC] [TIFF OMITTED] 85123.025
    
    [GRAPHIC] [TIFF OMITTED] 85123.026
    
    [GRAPHIC] [TIFF OMITTED] 85123.027
    
    [GRAPHIC] [TIFF OMITTED] 85123.028
    
    [GRAPHIC] [TIFF OMITTED] 85123.029
    
    [GRAPHIC] [TIFF OMITTED] 85123.030
    
    [GRAPHIC] [TIFF OMITTED] 85123.031
    
    [GRAPHIC] [TIFF OMITTED] 85123.032
    
    [GRAPHIC] [TIFF OMITTED] 85123.033
    
    [GRAPHIC] [TIFF OMITTED] 85123.034
    
    [GRAPHIC] [TIFF OMITTED] 85123.035
    
    Mr. Davis. Mr. Forman.
    Mr. Forman. Thank you. Thank you also for your leadership 
in e-government, cyber security and IT work force issues.
    This hearing is particularly important because we believe 
that the e-government efforts are critical to our ability to 
run the government effectively and efficiently. We appreciate 
your commitment and support in moving forward to leverage the 
power of the Internet for Americans.
    Before I get into the substance of my testimony, I need to 
make sure the subcommittee understands that I don't serve in a 
confirmed position within OMB. As a general policy, OMB usually 
does not send officials in unconfirmed political positions to 
testify. However, in this case, because OMB does not yet have a 
Deputy Director for Management, the OMB Director decided it was 
in the best interest of the administration to have me appear on 
his behalf as a witness.
    As you know, electronic government is one of the key 
elements of the President's management and performance plan. It 
is integral or integrated with, as we see it, the other 
management initiatives because e-government facilitates 
performance based budgeting, strategic management of human 
capital, and financial management. In fact, if you were to put 
those together, it is what corporations generally call 
enterprise resource management.
    At the same time, competitive sourcing has become a key 
tool used by companies to rapidly acquire and integrate 
information technology. We believe the combined effect of all 
the initiatives pursued concurrently is far greater than the 
mere sum of work on any independent initiatives.
    For our e-government efforts, we have to keep in mind three 
relevant lessons learned from e-business efforts in the 
commercial world. First, complex transactions can be collapsed 
and made simple using a combination of new business design and 
Internet technology. It is not simple enough to do the 
technology work. As was discussed, the business design is in 
parallel.
    Second, survival in the digital economy often requires 
restructuring into integrated customer centered operations that 
use both physical and on-line environments.
    Third, an organization's most senior executives must manage 
transformations strategically through commitments, setting 
priorities, expectation, focus and measurement. Therefore, the 
guiding principles for achieving our e-government vision are 
about simplifying the process and unifying the operations to 
better serve citizen needs and ultimately uncomplicating 
government.
    In late February, the Council for Excellence released its 
updated Teeter poll of what Americans want from e-government. 
As the chairman noted, Americans view e-government as 
important. In fact, more than three-quarters of Internet 
accessible Americans and more than half of all Americans 
overall go on line today to interact with their government. 
Moreover, the study found that 70 percent of Americans want 
government to invest in making it easier to get services and 
information.
    Our strategy for doing this focuses on the four citizen 
center groups, for individuals, what people wold call G to C, 
focused on one-stop shops for citizens that create single, easy 
points of entry to access high quality information and 
services, for businesses what people would call G to B, 
reducing the burden on business through use of the Internet. 
This is not about building a government Web site but rather 
being able to communicate with business in the language of e-
business largely x amount. For intergovernment or what people 
would refer to as G to G, we must make it easier for States and 
localities to meet the reporting requirements, provide better 
performance measurement and easier access to grants and other 
vertical information sharing initiatives. As Congressman Turner 
pointed out, it is these G to G initiatives that are homeland 
security related.
    In intergovernmental, our internal efficiency and 
effectiveness portfolio is using modern technology to rethink 
internal processes and bringing modern e-business programs to 
government and approaches to government.
    E-government uses IT to improve Federal productivity by 
enabling better interactions and coordination. Each opportunity 
requires substantial changes in current bureaucratic 
procedures. Each e-government initiative in our portfolio needs 
to be based on a valid business case. It has to clearly 
articulate the value both to the citizen and to the government, 
has to provide for privacy and security, and provide a real 
work plan for achieving the results.
    We undertook an analysis of the opportunities in our e-
government strategy project, what many would call the 
Quicksilver Project, a nickname we gave it during last summer. 
That identified the initiatives as you mentioned. In addition, 
we identified key barriers that have prevented successful 
implementation of e-government and those are listed in my 
testimony.
    One of the key findings of the task force came from review 
of the Federal enterprise architecture. Simply stated, the 
enterprise architecture, in our view, describes how the 
organization performs its work using the people, the business 
processes, the data and the technology. In essence, our view of 
the enterprise architecture that we need from the agencies and 
to support the projects has to be a modernization blueprint, 
the path as Mr. Hite said to get to where we need to go.
    A task force major finding was that there is a significant 
overlap and redundancy in the Federal business architecture. 
With 19 out of 24 Cabinet level departments and agencies 
reforming each major function in line of business of the 
Federal Government. The task force found that this business 
architecture redundancy creates excessive duplicative spending 
on staff, IT and administration. Moreover, the task force's 
assessment determined that the redundancy makes it hard to get 
service while generating duplicative reporting and paperwork 
burdens. In general, today's Federal Government business 
architecture is expensive to operate and not customer centered. 
Basic management principles tell us that the government 
operating cost will go down and effectiveness will go up if we 
make it simpler for citizens to get services. That is what we 
need to focus on in the enterprise architecture.
    Finally, I would like to call your attention to the 
government structure we have put in my larger testimony and 
highlight the fact that we have adopted modern portfolio 
management practices to move forward in e-government, 
leveraging the steering group that comprises the CIO Council, 
CFO Council, Human Resources Management Council, Procurement 
Executive Council members as well as line of business 
membership. Norm Larenz, the newly named Chief Technology 
Officer for the Federal Government, assists me in this regard 
and oversees the Portfolio Management Office as well as the 
enterprise architecture.
    Also noted in my testimony what we are moving toward in the 
Federal Government is the same best practice you will see in 
modern communications who are Web-enabled, these component-
based architecture tools and techniques to address these issues 
Mr. Hite has described.
    Ultimately, what gets measured gets done and I have 
included in my testimony the criteria that we use to measure 
agency progress. Included in that is how well they work 
together to support the integration across the silos in the 
area of e-government.
    Thank you.
    [The prepared statement of Mr. Forman follows:]
    [GRAPHIC] [TIFF OMITTED] 85123.036
    
    [GRAPHIC] [TIFF OMITTED] 85123.037
    
    [GRAPHIC] [TIFF OMITTED] 85123.038
    
    [GRAPHIC] [TIFF OMITTED] 85123.039
    
    [GRAPHIC] [TIFF OMITTED] 85123.040
    
    [GRAPHIC] [TIFF OMITTED] 85123.041
    
    [GRAPHIC] [TIFF OMITTED] 85123.042
    
    [GRAPHIC] [TIFF OMITTED] 85123.043
    
    [GRAPHIC] [TIFF OMITTED] 85123.044
    
    [GRAPHIC] [TIFF OMITTED] 85123.045
    
    [GRAPHIC] [TIFF OMITTED] 85123.046
    
    [GRAPHIC] [TIFF OMITTED] 85123.047
    
    [GRAPHIC] [TIFF OMITTED] 85123.048
    
    [GRAPHIC] [TIFF OMITTED] 85123.049
    
    [GRAPHIC] [TIFF OMITTED] 85123.050
    
    [GRAPHIC] [TIFF OMITTED] 85123.051
    
    [GRAPHIC] [TIFF OMITTED] 85123.052
    
    Mr. Davis. Thank you. I have a few questions. Mr. Hite, let 
me start with you.
    According to the figures you gave, there are 1,413 e-
government initiatives underway as of January 2001 and OMB 
seems to be really pursuing 24, which is a drop in the bucket 
when it comes to overall IT spending, which in 2000 will exceed 
$48 billion according to OMB's projections. Can you comment on 
the ability of one agency with a multitude of management and 
budgetary responsibilities to effectively oversee these other 
e-gov investments?
    Mr. Hite. Mr. Chairman, as Clint Eastwood said, a man has 
to know his limitations and I would defer to my colleague who 
is our expert on e-government to respond to that.
    Mr. Davis. Mr. McClure, thank you for being with us. Let 
the record know Mr. McClure was sworn earlier.
    Mr. McClure. I think you raise a good point, Mr. Chairman. 
Mark has responsibilities that go beyond the 24 e-gov 
initiatives being pursued under the President's management 
agenda. There is a relatively substantial IT budget for the 
Federal Government, $48 billion in 2002, going up to $53 
billion in 2003. What we would like to see is some of the 
things that have been done since Mark arrived as the use of 
good oversight tools by OMB to determine whether the agencies 
are pursuing best practices in some of the critical IT 
management areas, including enterprise architecture, capital 
planning and investment control, security, IT human capital.
    I think we have seen movement in that direction as 
exhibited both by the scorecard he alluded to that the 
President is using to rate agency performance, much of the IT 
being rated in the e-gov area, and second, the comprehensive 
nature of the changes made to the A11 budget exhibits that all 
the agencies use to submit their major IT submissions. These 
require a level of detail that did not exist before to get at 
some of the most vexing problems that we at GAO encounter when 
we do our reviews, solid business cases, security requirements, 
human capital needs, risk assessments, things that 
traditionally we have seen as weaknesses in many of the 
agencies we have reviewed.
    I think the real answer is the resources and tools being 
made available and analytical approaches being exercised by OMB 
give frank feedback to the agencies on their performance in the 
IT area.
    Mr. Forman. Mr. Chairman, if I could add something?
    Mr. Davis. Please, Mr. Forman.
    Mr Forman. When we did the work last summer, indeed we 
found about 370 ideas or concepts. Many of those projects were 
already funded and out of the 24 we selected, on average I 
would say there are 5 to 10 projects currently funded in that 
list of 400 and some you mentioned that Mr. Hite identified.
    We have a choice. We could let those 100 to 120 projects go 
forward, we could add in another cross agency project and then 
we would have 24 plus 110 to 120. Our decision was to forge 
partnerships among the teams that were already investing in 
these projects and adopt a component architecture type approach 
that allows not to pursue independent activities but to join 
their funding or join their assets around these common 
initiatives.
    I will give you a couple of examples. On-line rulemaking, 
one of the issues that came out very clearly in the recent 
Hart/Teeter survey is that people want more accountability in 
government. That means they want to see the regulations and 
rules that are being proposed and want to be able to comment on 
those.
    The agencies heard that and so if we have five, we have 25. 
Actually, we have quite a bit more than that initiatives 
underway to put rulemaking dockets on-line. There are five 
major projects that we have identified with the business cases 
using the methodologies Dr. McClure laid out. We don't need to 
buy all those and the agencies don't need to continue 
reinventing the wheel. So via the partnership for rulemaking 
on-line, we are figuring out essentially who does what and we 
are not going to invest in reinventing the wheel. We have to 
get control on that and these are the 24 priorities and areas 
we are going to focus on now.
    Mr. Davis. Let me ask also, what is your position on OMB's 
plans for component architecture for its e-government 
initiatives versus a consolidated Federal architecture?
    Mr. Hite. I would say it is difficult to answer that 
question because I have yet to have the conversation with OMB 
about the meaning of the word component. If component means or 
equals e-government initiative in which case it would be an 
architecture for each of the e-government initiatives, that 
would be fully consistent with our position as to what an 
enterprise represents. In fact, an enterprise can represent a 
business area or mission area that transcends more than one 
organization.
    If component means cost based components that would be 
integrated together to provide the e-government solution, I 
would fully support using cost based solutions, cost based 
components as the basis for introducing these e-government 
capabilities. That is the wave of the future. There are 
important management practices that go along with how you do 
that, one of which is having the context in which those cost 
applications will fit, that context is the architecture.
    Mr. Davis. Mr. Forman, the President, OMB and you have 
demonstrated remarkable management progress in recognizing the 
Federal Government's IT challenges and implementing reforms 
through the budget processes. In the future, probably way in 
the future, when the President is no longer the head of the 
executive branch, what statutory or executive branch mechanisms 
are or will be in place to guarantee that these reforms will 
continue to be managed effectively from one administration to 
the next?
    Mr. Forman. I think that is an excellent question. In fact, 
I and some colleagues I worked with on the staff were remarking 
about that. I am making extensive use of the Act and some of 
the vast authorities endowed on the Director of OMB. Why that 
was not done before, I don't know. Clearly we are living in a 
confluence of events now. The technology supports it, the 
interconnectivity of society has grown dramatically over the 
last 2 years, the whole notion of component based approaches in 
architectures, modular approaches, the battle that is going on 
between Microsoft and the Java community right now becoming 
relevant to the business world and the fact that government is 
increasing its investment when the business world is decreasing 
creates unique opportunities but when you get right down to it, 
using the authority that is laid out in the Act and that is at 
the heart of what I am finding to be the key to success.
    Mr. Davis. Let me yield to Mr. Turner.
    Mr. Turner. Mr. McClure, as you know, Mr. Davis and I met 
on occasion with some State and local officials talking about 
what they perceived to be barriers to the use of information 
technology and implementing e-government. You are familiar, I 
know, with some of those issues. It would be helpful to us if 
you could identify for us what in your opinion are the existing 
Federal laws or regulations that do represent legitimate 
barriers to State and local governments' ability to implement 
effective e-government policies?
    Mr. McClure. I can't claim to speak for all the laws and 
their impact in that area but I will tell you I think it 
requires a real partnership between the CIO Council at the 
Federal level, OMB and the Congress and State and local needs 
in the e-gov area so that we can ensure that on-line government 
and services being delivered to citizens and businesses at any 
level of government are as connected as possible.
    There is work in this area that is underway. The Federal 
CIO Council is working closely with the National Association of 
State CIOs to try to identify and overcome some of the 
technical barriers, managerial barriers, approaches, if you 
will, to how things are being managed in an intergovernmental 
fashion to try to produce more seamless service to the citizens 
regardless of where the service is being provided from. We have 
funding issues involved and how the money appropriated by the 
Congress is to be used; we have traditional cultural turf, 
ownership issues that have to be dealt with, but in the long 
run, I think what we need is a real identification of not only 
the barriers but the opportunities in those quick hit areas 
where services to citizens and businesses can be done in an 
integrated fashion across government lines. Some of that is 
proceeding. A lot of it has to do with resources, where the 
resources will come from, to fund many of those initiatives.
    Mr. Turner. We have seen examples of progress in some 
States, perhaps even progress exceeding our Federal Government. 
I know Mr. Davis and I both have concerns that we want to give 
our States flexibility to continue to move forward and not be a 
hindrance in what we put into law or policy.
    Several members requested a report some months ago which 
the GAO prepared regarding the Immigration and Naturalization 
Service. I don't recall who prepared that report within the 
GAO. Are you familiar with the report I am referring to?
    Mr. McClure. I think Mr. Hite actually prepared it.
    Mr. Hite. There are a number of reports we prepared on INS. 
The one in particular you are referring to, if you could give 
me a clue as to the subject?
    Mr. Turner. I may have a copy of it in just a minute.
    Mr. Hite. I personally have done reports recently dealing 
with INS' lack of an enterprise architecture and their lack of 
IT investment management capability.
    Mr. Turner. I may have a copy here. I will direct your 
attention to it in a moment.
    Mr. Forman, in the meantime, have you had an opportunity, 
particularly in light of the recent revelations, to take a look 
at the INS and its architecture, and what we might do to 
rapidly move to improve it?
    Mr. Forman. My review is actually supposed to be reported 
to me tomorrow with a set of recommendations. I don't have 
detailed analysis that I can answer that question with. Let me 
give you some insight on the types of things we are looking at. 
First of all, as Mr. Hite said, they are not one of the ones we 
would consider as successful in enterprise architecture. I 
think the GAO review lays out key insights and we are using 
those insights. I think that is an important piece of work.
    Let me also say that this issue is not unique or will not 
be solved by just the INS. The issue of border security 
requires getting a handle on our business architecture as it 
relates to border protection. That is something that extends 
beyond the INS, something Governor Ridge and the Homeland 
Security Office is looking at as well as the work that is going 
on in what is generally called the information sharing 
initiatives as one of the four major areas reported in the 
budget for homeland security.
    Mr. Turner. I noticed the President's budget requests $20 
million for the E-Government Fund which as we know is the fund 
to pay for interagency initiatives in e-government. Last year, 
the same request was made and you received $5 million. Do you 
have hope or prospects that maybe we can get that number up to 
the $20 million this year in light of the circumstances we find 
ourselves in?
    Mr. Forman. We actually requested $45 million this year. 
The issue here, and the Director of OMB laid this out to the 
Appropriations Subcommittee last week, is all 24 of these 
initiatives, and indeed there are many more, represent multiple 
funded projects. So the Congress has a choice and we too are 
working this issue, of how many times do we want to fund the 
same e-government effort. E-government forces us to look across 
agencies and focus on how we are delivering that line of 
business or service to the citizen.
    I believe this is the fundamental issue in the 
appropriations process for e-government and I believe that just 
as you have a focus across the agencies on e-government and 
other government reform issues, similarly the Appropriations 
Committee has to look across the subcommittees and take on 
essentially funding in e-government initiative once not agency 
by agency or department by department and that is essentially 
what we have laid out. Let us fund the key components of these 
initiatives once and then deduct up front, if you will, by not 
paying for five to ten times that many initiatives subcommittee 
by subcommittee. It is a tradeoff that has to be made at the 
full committee level.
    Mr. Turner. I suggested in my opening statement that the 
proper and efficient implementation of information technology 
in our agencies is now a national security issue, a personal 
safety issue. Heretofore, prior to September 11th, we always 
spoke of it in terms of efficiency in government, making 
government user friendly, and so forth. It seems to me in light 
of September 11th, there should be a new urgency regarding 
information technology in government. I am not sure that I have 
heard it expressed in those terms very often.
    Mr. Chairman, you will have to forgive me for this, but it 
is almost like what Enron did for campaign finance reform. 
September 11th and the terrorist threat should give impetus to 
emphasis on information technology. When I heard Mr. Siebel's 
testimony a few weeks ago, it caused me to realize that though 
the American people have not blamed their government and the 
failure of government for September 11th, the link between 
those events and the lack of information coordination would 
tell us if that is ever repeated, the American people may very 
well hold their government accountable for that next incident.
    I think it is very important for us to speak in terms of 
national security, personal safety when we make the case to 
move forward more rapidly through the proper application of 
information technology. I hope you will do that and carry that 
message forward and the administration will carry that message 
forward and if you do so, I feel much more confident that your 
budget request will be honored by the Congress.
    Mr. Forman. I appreciate that. Indeed, we view the 
government and homeland security as very closely related. Even 
though the government to government portfolio was defined 
before the events of September 11th, four out of the five 
initiatives are homeland security and are embraced as such in 
the budget as what we call vertical information sharing.
    If I can amplify your point and also embrace the chairman's 
composition of the hearing today, I think one thing that is 
clear is this as much an enterprise and business architecture 
issue as it is an IT issue. I will give you some very simple 
concepts.
    After the events of September 11th when Governor Ridge came 
on board, the President and Governor Ridge said we need to 
leverage the technology to address this issue. They made that 
very clear and about 1,000 vendors and multiple government 
agencies showed up on my doorstep, everybody wanting to share 
information or having tools to share information.
    One company showed up that said, we can make you do 
something with the information and that is the business process 
issue, how do you work together, not just to share information, 
but to improve the quality of the process. So we adopted two 
very simple measures of merit to look at these IT investments 
but they are business process related metrics.
    First is can you increase the response time? To me that is 
the measure of success that we need to be held accountable for 
delivering things like e-government and homeland security. The 
other is quality of the decisions--are we getting better 
decisions faster, are we able to respond to threats faster?
    Mr. Turner. I have no doubt that we can make progress. The 
chairman's hearing we had a few weeks ago brought together many 
folks from the private sector. We got just a taste of some of 
those ideas that I am sure you have heard about many times 
over. I am hopeful that this opportunity will not be lost and I 
think it is critical to our safety and our security.
    Mr. Davis. Mr. Forman, can you comment on concerns raised 
by some folks in the private sector that government is 
competing with industry in developing and implementing e-
government initiatives?
    Mr. Forman. I don't see any competition at all. There is a 
generational gap that I think we are getting through, hope we 
are getting through. In the e-government space, there are so 
many different opportunities and ways to partner with industry 
but one very simple way is to have people build a branded store 
for us. For example, take the concept of Hot Jobs or Monster, 
they build a branded storefront for recruitment for many large 
companies. You would go to a company and apply for their job 
and the job part of their portal never realizing that you are 
actually at Hot Jobs or Monster.com. Then you can click back 
and look at the stock reports or whatever. You are operating 
within what is called a branded storefront or branded portal.
    That is the type of thing we see. It is a faster way to get 
things, proven, you can specify security, specify services but 
you don't have to build anything.
    Mr. Davis. I want to thank you all for being here. I will 
dismiss this panel at this point.
    We will call our next panel: Mr. Holcomb, Ms. Stouffer, Ms. 
Canales, Dr. Callahan, Ms. Barnes and Dr. Blanchard. We will 
take a 2-minute break while you set up.
    [Recess.]
    Mr. Davis. The second panel is ready.
    [Witnesses sworn.]
    Mr. Davis. I will start with Mr. Holcomb and move straight 
down the line. If you can keep your testimony to 5 minutes, we 
have most of our questions pre-determined on this as we have 
gone through your testimony and it will make it run a little 
more efficiently.
    So, Mr. Holcomb, please proceed.

STATEMENTS OF LEE HOLCOMB, CIO, CO-CHAIR, FEDERAL ARCHITECTURE 
AND INFRASTRUCTURE COMMITTEE, FEDERAL CIO COUNCIL, NASA; DEBRA 
 STOUFFER, DEPUTY CHIEF INFORMATION OFFICER FOR IT REFORM, CO-
CHAIR, BEST PRACTICES COMMITTEE, FEDERAL CIO COUNCIL, HUD; MAYI 
   CANALES, DEPUTY CIO, E-GOVERNMENT PORTFOLIO COORDINATOR, 
 FEDERAL CIO COUNCIL, DEPARTMENT OF TREASURY; LAURA CALLAHAN, 
DEPUTY CIO, INFORMATION TECHNOLOGY CENTER, CO-CHAIR, WORKFORCE 
  & HUMAN CAPITAL FOR IT, FEDERAL CIO COUNCIL, DEPARTMENT OF 
   LABOR; JANET BARNES, CIO, OPM; AND LLOYD BLANCHARD, CHIEF 
   OPERATING OFFICER, OFFICE OF MANAGEMENT & ADMINISTRATION, 
 OFFICE OF THE ASSOCIATE DEPUTY ADMINISTRATOR, SMALL BUSINESS 
                         ADMINISTRATION

    Mr. Holcomb. I am pleased to appear before the subcommittee 
today to discuss enterprise architectures. I will briefly 
summarize my written statement.
    I want to thank the chairman and Mr. Turner for your 
continued support and encouragement toward electronic 
government.
    Development and use of enterprise architectures at the 
individual agency and Federal levels is a key component in the 
effective management of information technology investments. I 
have serve as the CIO for NASA since November 1997 and since 
February 1999, I have also served as the Co-Chair of the 
Architecture Infrastructure Committee of the Federal CIO 
Council. Mr. John Gilligan, the CIO from the Air Force, is my 
Co-Chair.
    In the context of an individual agency, an enterprise 
architecture establishes the agencywide road map to achieve the 
agency's mission through optimal performance of its core 
business processes within an efficient information technology 
framework. The history of Federal IT investments provides many 
examples of failed projects which lack linkage between business 
needs and the underlying IT technical solutions. These failed 
IT projects in most cases did not benefit from an enterprise 
architecture to guide the IT investment.
    In my remarks today I plan to speak briefly about how the 
Federal CIO Council has sought to avoid those consequences 
through enterprise architecture related products and through 
education and training efforts.
    The Federal Architecture Working Group of the Architecture 
and Infrastructure Committee is one of the most productive 
working groups in the Federal IT community. The working group 
has significantly influenced the enterprise architecture 
efforts of governmental and private entities, especially 
through their publications.
    The Federal Architecture Working Group has partnered with 
OMB and the General Accounting Office to produce the Federal 
Enterprise Architecture Framework. This framework is available 
at the CIO Web site, www.cio.gov.
    The framework provides agencies with definitive guidance on 
creating and using enterprise architectures. It can be used by 
anyone considering or actively developing an enterprise 
architecture. The Federal Enterprise Architecture Framework 
provides a road map for agencies seeking to transition from a 
current architecture to a target architecture. Mr. Hite did an 
excellent job of defining an enterprise architecture in the 
prior panel.
    In addition to publishing formal guidance, the Architecture 
and Infrastructure Committee provides and supports education 
and training initiatives addressing enterprise architectures in 
general, as well as specific subtopics such as Section 508 of 
the Rehabilitation Act of 1973, public key infrastructure and 
extensive mark-up language or XMl.
    Reflective of the positive momentum which enterprise 
architecture efforts have achieved in the Federal sector, the 
private has begun offering Federal enterprise architecture 
training courses. These programs recognize that Federal 
agencies require qualified staff to implement enterprise 
architecture. One example of this is the certification program 
in enterprise architectures that is being offered by the 
California State University system. The Federal Architecture 
Working Group has been asked to support that certification by 
acting as a forum for setting certification standards and 
assisting in updating the content of the certification program.
    In conclusion, as we heard in the first panel, the Federal 
Government remains in the early stages of the development and 
use of enterprise architectures. One would not build a building 
or an aerospace vehicle without architectural drawings. 
Similarly, the Government should set as a goal establishing an 
enterprise architecture prior to investing in a major IT 
program.
    I would like to offer four observations and recommendations 
for your consideration. First, the Federal CIO Council's 
Architecture Working Group with the participation of GAO and 
OMB has laid a strong technical foundation in the discipline or 
enterprise architectures as applied to the public sector.
    Second, the OMB should continue to assess and report on 
agency level development and use of enterprise architectures.
    Third, Federal agencies should address the natural tendency 
for internal bureaus to become compartmentalized and 
stovepiped. Often the largest impediment to enterprise 
architecture efforts is the tension between program managers 
who are trying to achieve a specific task and CIOs who are 
trying to build a more cohesive and strategic IT foundation. 
The OMB could play a role in encouraging these broader 
attitudes which are crucial to the successful application of 
enterprise architectures at both the agency and Federal 
Government levels.
    Fourth, we should collectively work to achieve the proper 
balance of resources allocated to enterprise architecture at 
the agency and cross agency levels. There is clearly evidence 
of a positive momentum in Federal agency use of enterprise 
architectures. With the support of OMB and Congress, this 
momentum can be sustained to ensure enterprise architectures 
play a major role in improving the performance and 
accountability of IT investments at both the agency and 
governmentwide levels.
    I would welcome any questions you might have.
    [The prepared statement of Mr. Holcomb follows:]
    [GRAPHIC] [TIFF OMITTED] 85123.053
    
    [GRAPHIC] [TIFF OMITTED] 85123.054
    
    [GRAPHIC] [TIFF OMITTED] 85123.055
    
    [GRAPHIC] [TIFF OMITTED] 85123.056
    
    [GRAPHIC] [TIFF OMITTED] 85123.057
    
    [GRAPHIC] [TIFF OMITTED] 85123.058
    
    [GRAPHIC] [TIFF OMITTED] 85123.059
    
    [GRAPHIC] [TIFF OMITTED] 85123.060
    
    [GRAPHIC] [TIFF OMITTED] 85123.061
    
    Mr. Davis. Thank you.
    Ms. Stouffer.
    Ms. Stouffer. On behalf of Secretary Mel Martinez, thank 
you for the opportunity to discuss HUD's effort to improve the 
effectiveness and cost efficiency of departmental programs, to 
the development and deployment of a HUD enterprise-wide 
architecture.
    I am going to limit my remarks to enterprise architecture 
at HUD and the need for continued congressional and OMB support 
for enterprise architecture development.
    I serve as HUD's Deputy CIO for IT Reform and I co-chair 
the Federal CIO Council's Committee on Best Practices. In early 
February 2002, I accepted a temporary detail as the Federal 
Enterprise Architecture Program Manager.
    Let me first discuss HUD's approach to enterprise 
architecture. At one time, HUD's IT environment consisted of 
more than 200 stovepipe systems, many of which were very 
independent of one another and didn't talk to one another. The 
systems carried out redundant processes and relied on obsolete 
technology, contained incompatible data and were incapable of 
supporting enterprisewide decisionmaking.
    HUD completed the initial development of an enterprise 
architecture and a baseline architecture and target 
architectures in the areas of grants and financial management 
in January 2001. HUD also developed a dynamic Web-based tool to 
track and analyze the layers of its enterprise architecture and 
the relationships between those layers.
    This enterprise architecture management system is helping 
to identify opportunities where collaboration, data sharing and 
process simplification can lead to improved productivity, 
efficiency, effectiveness and service delivery. Because of 
HUD's success, EAMS is currently being used and evaluated by 
approximately ten other Federal organizations.
    HUD's enterprise architecture is beginning to drive its IT 
capital planning and investment management process. The 
selection of initiatives to be included in the Department's IT 
portfolio is based upon a thorough business case that includes 
several architectural related considerations. As a result, its 
enterprisewide approach to IT investment management, HUD is now 
pursuing several cross program enterprisewide or cross 
governmental initiatives.
    Let me now discuss HUD's leadership in the area of e-gov. 
Two examples of HUD's e-gov success stories include FHA 
connection and the capability to conduct on-line loan auctions. 
FHA connection was developed by HUD to support electronic 
commerce between FHA and the community of approved FHA lenders 
and service providers. Using a single user ID a business 
partner can submit official business transactions to a variety 
of automated systems.
    In the area of FHA single family loan origination, more 
than 90 percent of the business transactions processed by HUD 
come from business partners using FHA connection. There are 
currently 9,000 lenders and 100,000 users of the system.
    In addition, last April, HUD conducted its first Web-based 
loan sale. The $111 million auction was the largest Internet 
loan sale ever conducted by the Federal Government. The auction 
loans provided funds for the rehabilitation of homes in 
distressed neighborhoods at below market rates. By empowering 
bidders through an advanced loan trading system, HUD increased 
bidder interest in the sale and maximized its sale proceeds. 
Because of its leadership in the area of enterprise 
architecture and e-gov, HUD is the partnering agency on 15 of 
the President's e-gov initiatives.
    With regard to the security of its IT investments, HUD is 
also implementing a methodology to comprehensively assess the 
current HUD security landscape through its enterprise 
architecture. With respect to security and privacy, HUD will 
make no distinction between e-gov and non-e-gov systems. The 
methodology will guide the Department in identifying sensitive 
information being collected and the processes and policies for 
handling this information.
    Finally, let me comment on how the Federal budget process 
can support enterprise architecture development. Based on my 
experience at HUD and as Co-Chair of the Best Practices 
Committee, I believe it is critical that OMB and Congress 
continue to encourage agencies to make progress in this area. 
Establishing an enterprise architecture requires participation 
from all agency organizations. Providing, verifying, updating 
and analyzing the enormous amount of information takes a 
significant amount of time and requires a widespread, 
multidisciplined effort. Continued improvement requires 
perseverance and the support of critical oversight 
organizations such as Congress and OMB.
    Thank you for the opportunity to share my thoughts.
    [The prepared statement of Ms. Stouffer follows:]
    [GRAPHIC] [TIFF OMITTED] 85123.062
    
    [GRAPHIC] [TIFF OMITTED] 85123.063
    
    [GRAPHIC] [TIFF OMITTED] 85123.064
    
    [GRAPHIC] [TIFF OMITTED] 85123.065
    
    Mr. Davis. Thank you very much.
    Ms. Canales.
    Ms. Canales. I would like to thank the chairman and the 
other members of the subcommittee for your continued support 
and interest in the improvement of information technology 
performance and accountability in the Federal Government. I 
will briefly summarize my written testimony.
    I serve as the Deputy CIO for the Treasury Department. In 
this role I provide strategic direction, oversight and 
management of all information technology programs within the 
Treasury Department and its bureaus. I also serve on the 
Federal CIO Council Executive Committee as the E-Government 
Coordinator.
    In the Treasury Department, forums such as the Treasury 
Chief Information Officer's Council, the Capital Investment 
Review Board and the newly formed Chief Officer's Council, 
address enterprisewide issues facing the Department and its 
bureaus. I have provided a handout with my testimony of the 
structure within the Treasury Department to address enterprise 
decisions and strategic planning.
    The Treasury CIO Council provides the strategic technical 
direction and evaluation technical solutions considered on an 
enterprise basis. Business cases for enterprise solutions are 
evaluated and approved by the Capital Investment Review Board. 
The Chief Officer's Council is designed to act as a steering 
group adopting initiatives and developing high level 
departmental benchmarks. Its membership is comprised of chief 
information and financial officers, human resource officers and 
procurement executives.
    Treasury has more direct contact with the public than most 
Federal agencies. To mention a few initiatives that are in my 
written submission, Treasury is implementing an enterprise 
human resource system, the Treasury communications enterprise, 
the IRS business systems modernization, the automated 
commercial environment with customs, the savings bond 
connection and the payment application modernization under 
Financial Management Service. These are just a few of the 
success stories we have in the department.
    The task at hand now is to continue the growth of e-
government and to manage the transfer as a team across 
government. At Treasury we are using enterprise architecture, 
EA, to create a unified approach to business solutions. We are 
leveraging EA to align technology to the business needs to 
allow sound business decisions, making IT more accountable to 
the business management.
    We have a Department EA Working Group that reports directly 
to the CIO Council. Treasury also has the lead project, Safe 
COM. Safe COM will accelerate the implementation of 
interoperable public safety, wireless communications at all 
levels of government throughout the Nation. The goals of the 
program are to save lives through immediate public safety 
communications and coordination. By addressing local, State and 
Federal interoperability, we will be able to provide effective 
public safety and emergency support communications.
    Any legislation considered should focus on improving the 
coordination and implementation of IT efforts across functional 
boundaries. Any legislation that would reduce the burden on 
citizens to provide information is a positive step. The 
Government programs that share common elements of information 
could be vastly improved with stronger authority to enforce 
interagency and intergovernmental cooperation.
    OMB's memorandum funding information systems investments 
establishes eight decision criteria OMB uses to evaluate all 
major information systems investments. These rules initiated 
fundamental changes in the management of IT resources and 
provided the underpinning in the promotion of enterprise 
solutions.
    Legislative guidelines such as Klinger-Cohen Act further 
underscore the importance for the effective management of IT 
resources. The next step is to the capital planning process 
across agency boundary and into citizen-centered investments.
    The Treasury CIO Council has identified security, privacy 
and critical infrastructure protection as a key initiative. The 
Council established several committees with cross bureau 
representation to address security issues for the Department.
    Policies and practices are shared and implemented across 
the Department. The committees have established enterprise 
performance metrics to ensure that effective security controls 
are developed for every major system or application within the 
Department. There is a plan in place to certify and accredit 
all major systems. We have established a computer security 
incident response capability. Periodic system security reviews 
are performed by the Office of Information Security.
    The Treasury CIO Council approved and adopted the IRS' 
security assessment framework as a standard for Treasury. 
Treasury also developed a Web-enabled, agencywide information 
security awareness course.
    I would like to thank the subcommittee for the support it 
has given to e-government. Without your support, we would not 
have been able to achieve the national success we enjoy today.
    Thank you for the opportunity to appear before you this 
afternoon. This concludes my formal remarks and I would be 
happy to respond to any questions.
    [The prepared statement of Ms. Canales follows:]
    [GRAPHIC] [TIFF OMITTED] 85123.066
    
    [GRAPHIC] [TIFF OMITTED] 85123.067
    
    [GRAPHIC] [TIFF OMITTED] 85123.068
    
    [GRAPHIC] [TIFF OMITTED] 85123.069
    
    [GRAPHIC] [TIFF OMITTED] 85123.070
    
    [GRAPHIC] [TIFF OMITTED] 85123.071
    
    [GRAPHIC] [TIFF OMITTED] 85123.072
    
    [GRAPHIC] [TIFF OMITTED] 85123.073
    
    [GRAPHIC] [TIFF OMITTED] 85123.074
    
    [GRAPHIC] [TIFF OMITTED] 85123.075
    
    [GRAPHIC] [TIFF OMITTED] 85123.076
    
    [GRAPHIC] [TIFF OMITTED] 85123.077
    
    [GRAPHIC] [TIFF OMITTED] 85123.078
    
    [GRAPHIC] [TIFF OMITTED] 85123.079
    
    [GRAPHIC] [TIFF OMITTED] 85123.080
    
    [GRAPHIC] [TIFF OMITTED] 85123.081
    
    [GRAPHIC] [TIFF OMITTED] 85123.082
    
    Mr. Davis. Dr. Callahan.
    Ms. Callahan. I appreciate you inviting me here today to be 
able to describe how the Department of Labor is streamlining 
and strengthening its information resources infrastructure for 
the purpose of improving the effectiveness and efficiency of 
our operations and our programs.
    As you are aware, the Department of Labor is a 
decentralized organization. Therefore, taking an enterprisewide 
management approach is critical to making sure that our 
information infrastructure is not only efficient and responsive 
but most importantly ensuring that we have the appropriate 
infrastructure in place to improve service delivery to our 
customers. In this way, the Department of Labor can truly 
become a digital department.
    The specifics pertaining to the Department's 
accomplishments and progress have been detailed in my written 
testimony and I would like to summarize some of the key 
highlights.
    In May 2001, the Department of Labor created an e-
government strategy that articulates a vision of guiding 
principles and provides the framework in order for us to manage 
through this time of change and transformation. We focus on 
four key programmatic areas as far as managing change with that 
strategy: customer relationship management to truly ensure we 
have a citizen-centered government, in addition to 
organizational capabilities which is where we deal with our 
people policies and procedures, as well as another key focus 
area enterprise architecture; and most importantly, something 
that crosses through all aspects and focus areas, security and 
privacy to ensure that we maintain the citizens' trust in the 
work we perform and the information we process and handle.
    To implement the vision, the Department has established a 
several pronged strategy to include the management and 
budgetary framework necessary in order to govern enterprisewide 
issues. The structure that we have in place includes a multi-
tiered investment review board that is led through the 
Secretary and her strong leadership. In addition, we have a 
capital planning and investment control process as well as we 
have established a central IT crosscut fund which allows us to 
focus into portfolio management areas. The portfolio management 
areas include enterprise architecture, common office 
administration suites, common management systems that are 
enterprisewide as well as security and privacy. Those 
initiatives and security and privacy cut across all aspects of 
our investment portfolios.
    When an initiative is being considered for investment it 
undergoes a very rigorous process as part of the capital 
planning and investment control activities. Once it is 
selected, we then monitor it very rigorously through a 
quarterly review process to ensure that not only the investment 
itself but the portfolio as a whole is achieving our objectives 
in accordance with cost, schedule and performance goals.
    As a result of these efforts, we have been able to realize 
cost avoidance savings. Particularly, we have been able to 
achieve a 40 percent reduction in our potential enterprise 
architecture expenditures. In one particular example is our 
common office administration suite in which the initial cost if 
each agency were to handle this in a traditional stovepiped 
approach, it would have been an expenditure of $33.7 million. 
By consolidating the efforts at the enterprise level and 
managing it through the Investment Review Board structure under 
the leadership of the Secretary, we have been able to reduce 
the cost down to $26 million. This essentially is a $7.3 
million savings or a 21 percent reduction in cost avoidance.
    Building on our initiatives, we have established a very 
strong enterprise architecture program in which we handle our 
enterprise architecture activities in a phased approach. The 
Department of Labor is the only department in the Federal 
Government that has a federated enterprise architecture model, 
one that is designed to work in a decentralized environment. 
With that, we have established our functional levels of 
business, our data architecture, a mission critical 
applications architecture and a technology baseline.
    We also function under nine enterprise architecture guiding 
principles, 37 standards and a technical reference model to 
ensure investments are closing the gap and moving us toward the 
target of where we want to be. In order to manage our 
enterprise architecture technology reference model, we also 
have a standards life cycle process in place to ensure that we 
are dynamic and flexible and can take advantage of industry 
revolutions and novel and emerging technologies in a way that 
makes sense to a minor business with our technology.
    Our enterprisewide initiatives at the Department level have 
enabled us to be positioned to be able to lead a very important 
e-government initiative, one of the 24. The eligibility 
assistance on-line initiative which is now called Gov Benefits, 
is an initiative in which the Department of Labor is a managing 
partner.
    We are looking at the opportunity of not only employing 
enterprise architecture activities at our department level, but 
across the Federal Government through this particular 
initiative, in particular the eligibility assistance on-line 
initiative is being hosted at First Gov, not at the Department 
of Labor. This management decision enables us to take advantage 
of the technological advances that have been realized through 
the First Gov Initiative without creating a duplication of 
effort.
    This allows us to establish the fundamental processes and 
foundation in place to support the administration's goal of 
unification and simplification and mostly importantly, to 
collect information once we use it rather than place additional 
burden on the public.
    As we manage our change and as we continue to transform 
ourselves, we are looking forward to incentives in the 
appropriations process to ensure that agencies are encouraged 
to collaborate across traditional boundaries and with that, an 
entire business transaction receives the resource requirements 
necessary to ensure that it is successful across traditional 
agency boundaries.
    These activities coupled with an industry best practice as 
far as a self sustaining enterprise architecture will encourage 
more entrpreneurialship within the Federal Government and 
enable us to continue to foster collaboration across agencies 
which will be key
to our success as we move forward during this exciting time of 
transformation.
    This concludes my comments and I look forward to answering 
your questions.
    [The prepared statement of Ms. Callahan follows:]
    [GRAPHIC] [TIFF OMITTED] 85123.083
    
    [GRAPHIC] [TIFF OMITTED] 85123.084
    
    [GRAPHIC] [TIFF OMITTED] 85123.085
    
    [GRAPHIC] [TIFF OMITTED] 85123.086
    
    [GRAPHIC] [TIFF OMITTED] 85123.087
    
    [GRAPHIC] [TIFF OMITTED] 85123.088
    
    [GRAPHIC] [TIFF OMITTED] 85123.089
    
    [GRAPHIC] [TIFF OMITTED] 85123.090
    
    Mr. Davis. Thank you.
    Ms. Barnes.
    Ms. Barnes. I appreciate the opportunity to be here today 
to update yo on our e-government initiative and the application 
of enterprise architecture at the Office of Personnel 
Management.
    As you know, the President has a bold focus management 
agenda designed to deliver citizen centered, results oriented, 
market driven government to the American people and the 
Director of OPM is committed to reorienting the focus of our 
agency to achieve those goals.
    OPM is the managing partner for five e-government 
initiatives. All of them focus on improving internal efficiency 
and effectiveness of the Federal Government. Our initiatives, 
which include e-training, e-clearance, recruitment one stop, 
enterprise human resources integration, and e-HR payroll affect 
all agencies cutting across the entire Federal Government. 
Accordingly, we need to be concerned with two levels of 
enterprise architecture, the one guiding information technology 
investment supporting OPM, and the governmentwide enterprise 
architecture being developed by OMB.
    In addition to high level views of our business processes 
and information flows, OPM's enterprise architecture includes 
the concept of a single enterprise network for all of OPM, one 
consolidated data center, technical standards, a planned 
agencywide technology refreshment cycle and a structured system 
development methodology.
    Our enterprise architecture has played a critical role in 
helping us evolve technology in a cost effective direction. It 
has been a driving force in establishing our quality assurance 
program, implementing infrastructure upgrades and addressing 
the importance of security and privacy.
    Capitalizing on the strengths in our enterprise 
architecture, OPM's e-government initiatives will play an 
integral role in streamlining and improving procedures for 
moving Federal employees through their employment life cycle. 
In each phase of that life cycle, OPM will use these 
initiatives to remove redundancy, reduce response time, 
eliminate paperwork and improve coordination among Federal 
agencies.
    To achieve OPM's vision, its e-government initiatives will 
seamlessly integrate with each other. OPM's vision for its e-
government initiatives is in fact based on that employee life 
cycle, beginning with recruitment, continuing through all 
aspects of employment, and culminating with retirement.
    The core of this process is the enterprise human resources 
integration initiative or E-HRI which will provide for the 
electronic movement of H.R. data across the Federal Government. 
E-HRI will act as a central hub connecting all of the OPM 
initiatives and streamlining government processes. In addition, 
a two-way communication process between E-HRI and agency H.R. 
systems will allow E-HRI to share its data among the agencies 
and augment its information through data entered through the 
various agency systems.
    The employee life cycle begins with the recruitment and 
hiring process. Recruitment one-stop will serve as the initial 
collection point for a variety of personnel data that 
subsequently will be used in all of the OPM e-government 
initiatives. Once the employment phase begins, the recruitment 
one-stop system will pass relevant data to the E-HRI system as 
the foundation for an official personnel folder.
    E-clearance will offer support during this phase by 
facilitating the clearance request process for providing 
electronic access to clearance information we already have. 
After applications are hired, during the employment phase of 
the life cycle, the systems supporting E-HRI will be updated 
with the latest clearance status of employees through the E-
clearance system.
    The E-training system will be able to share data with E-HRI 
to help formulate employee training plans and track their 
progress. Additionally, the product of the payroll 
consolidation effort or E-HR-Payroll will share appropriate 
data with E-HRI to ensure up to date and accurate information.
    OPM's initiatives will facilitate a smooth transition to 
retirement when employees decide to leave the Federal 
Government. E-HRI will forward appropriate information to the 
retirement processing system to ensure that Federal Government 
retirees get paid promptly and accurately.
    Clearly OPM has a vision for how these initiatives will 
work together but because these are interagency initiatives, we 
will be guided by the governmentwide enterprise architecture 
being developed by OMB as we move forward.
    In closing, we are pleased to be leading the Federal 
Government's efforts to unify and simplify a number of human 
resources functions through the wise use of technology. 
However, we understand this is not just a technology challenge. 
Change management, the willingness to look for and use best of 
breed examples in the public and private sector and creative 
approaches to resolving longstanding process complexities will 
be equally important if we are to fully achieve our objectives.
    Thank you for inviting me to be here today and I would be 
happy to respond to any questions.
    [The prepared statement of Ms. Barnes follows:]
    [GRAPHIC] [TIFF OMITTED] 85123.091
    
    [GRAPHIC] [TIFF OMITTED] 85123.092
    
    [GRAPHIC] [TIFF OMITTED] 85123.093
    
    [GRAPHIC] [TIFF OMITTED] 85123.094
    
    [GRAPHIC] [TIFF OMITTED] 85123.095
    
    [GRAPHIC] [TIFF OMITTED] 85123.096
    
    [GRAPHIC] [TIFF OMITTED] 85123.097
    
    [GRAPHIC] [TIFF OMITTED] 85123.098
    
    [GRAPHIC] [TIFF OMITTED] 85123.099
    
    [GRAPHIC] [TIFF OMITTED] 85123.100
    
    [GRAPHIC] [TIFF OMITTED] 85123.101
    
    [GRAPHIC] [TIFF OMITTED] 85123.102
    
    [GRAPHIC] [TIFF OMITTED] 85123.103
    
    [GRAPHIC] [TIFF OMITTED] 85123.104
    
    [GRAPHIC] [TIFF OMITTED] 85123.105
    
    [GRAPHIC] [TIFF OMITTED] 85123.106
    
    Mr. Davis. Thank you.
    Mr. Blanchard.
    Mr. Blanchard. Thank you for inviting the Small Business 
Administration to testify on its role as the managing partner 
for the Business Compliance, Assistance One Stop Initiative.
    I am the Chief Operating Officer for the SBA, charged with 
the responsibility of implementing the President's management 
agenda at SBA. Joining me is Larry Barrett, SBA CIO and Dr. Jim 
Van Wert, SBA Senior Advisor for Policy Planning and the E-
Government Project Manager for creating the Business Compliance 
One-Stop.
    Small businesses repeatedly stress their concerns about the 
burden of laws and regulations. SBA's Office of Advocacy 
estimates that complying with laws and regulations costs small 
firms nearly half a trillion dollars in the year 2000 or $7,000 
per employee for firms with less than 20 employees.
    Few electronic tools exist to enable small businesses to 
cope with the myriad of laws and regulations that affect them 
at all levels of government. With this in mind, SBA launched 
businesslaw.gov in December 2001. We are leading the effort to 
build a governmentwide business compliance assistance one-stop 
to present a single face of government to small businesses 
making it easier for all 25 million businesses to find, 
understand and comply with these laws and regulations.
    The President's fiscal year 2003 budget for SBA includes $5 
million to support the project activities of its eight 
participating Federal partners and other State and local 
government partners.
    As the managing partner on this project, SBA will be 
accountable for project management, developing the enterprise 
architecture and locating private sector consultants who will 
develop the modules and assist in overseeing the effort.
    SBA will begin by targeting several industries across four 
compliance functional areas: the environment, workplace health 
and safety, employment and taxation. The goal is to enable all 
businesses to electronically register their businesses, receive 
tax ID numbers, and do licensing and permitting on-line. SBA 
will buildupon businesslaw.gov which today is a library of 
legal and regulatory business information. The Business 
Compliance One-Stop can be thought of as the librarian. It goes 
beyond simply providing information; it offers services and 
solutions through interactive guides and on-line transactions.
    SBA is well positioned internally as it is already made 
significant strides in creating an open systems technology 
environment supporting the interoperability of technologies and 
systems within and outside the SBA. SBA has also been a leader 
i providing cross-agency information and services via the 
Internet as exemplified by the CIO Council Award for Government 
to Business announced just yesterday.
    Nevertheless, SBA must confront a number of technical 
issues to successfully implement the Business Compliance One-
Stop. For example, a cross agency platform must be developed 
without dictating the data bases and applications that Federal, 
State and local agencies use. This platform must work with 
existing technologies but must also provide the Web services 
infrastructure that minimizes system development. It must be 
open and secure while providing maximum flexibility for 
participating agencies.
    The Business Compliance One-Stop will save businesses time 
and money by reducing their legal and regulatory burden. this 
will improve compliance with laws and regulations affecting 
their operations and thereby reducing Government's cost for 
enforcement and compliance activities.
    Finally and most importantly, the Business Compliance One-
Stop will make the Federal Government more accessible to its 
citizens, unifying and simplifying the delivery of needed 
services will result in a more cost effective government that 
is citizen-centered, market-based and results-driven. With 
leadership resources, the right industry partners and a lot of 
persistence, we can transform our public institutions into more 
accessible and responsible organizations.
    This is what Congress asks, the President demands and 
citizens expect.
    Thank you for the opportunity to appear here today and I 
will be happy to answer your questions.
    [The prepared statement of Mr. Blanchard follows:]
    [GRAPHIC] [TIFF OMITTED] 85123.107
    
    [GRAPHIC] [TIFF OMITTED] 85123.108
    
    [GRAPHIC] [TIFF OMITTED] 85123.109
    
    [GRAPHIC] [TIFF OMITTED] 85123.110
    
    [GRAPHIC] [TIFF OMITTED] 85123.111
    
    [GRAPHIC] [TIFF OMITTED] 85123.112
    
    [GRAPHIC] [TIFF OMITTED] 85123.113
    
    [GRAPHIC] [TIFF OMITTED] 85123.114
    
    [GRAPHIC] [TIFF OMITTED] 85123.115
    
    [GRAPHIC] [TIFF OMITTED] 85123.116
    
    [GRAPHIC] [TIFF OMITTED] 85123.117
    
    [GRAPHIC] [TIFF OMITTED] 85123.118
    
    Mr. Davis. Let me start with Ms. Canales. In your 
testimony, you mentioned that many government programs that 
share common elements could be vastly improved with stronger 
authority to enforce inter-agency and inter-governmental 
cooperation. Do you think the Federal Government needs a 
Federal CIO?
    Ms. Canales. I think what we have done to date with Mark 
Forman as the Associate Director for IT and E-Government has 
come a long way toward what the Federal Government needs. We 
need somebody at the Presidential level taking responsibility 
and accountability for the movement toward e-government and 
technology issues across the Government. We need somebody with 
authority at OMB to help agencies deal with budget issues. 
Budget issues were the mechanisms for us to fund cross-agency 
projects are not there for a single agency. If Labor and HUD 
and Treasury and OPM need to do a project together, we need 
help pooling our resources, pooling existing structures that we 
have built and funded, pooling resources for future development 
cross projects that are not just 1 year but 5 years.
    I think that what we have done to date has come a long way. 
I think we should learn from what we have done to date and 
possibly exist under this current situation for a while before 
we go much further and create new structures within government.
    Mr. Davis. Anybody else want to answer that?
    Ms. Callahan, let me ask you. You note in your testimony 
that Labor is the only department with government-wide IT 
financing. Can you comment on why other agencies and 
departments haven't pursued the same IT financial management 
structure and why, do you think, it has worked at DOL?
    Ms. Callahan. I am not able to comment on the other 
departments and their decisionmaking but I can articulate how 
it has helped us at the Department of Labor. Basically creating 
a central IT fund has enabled us to break down the traditional 
appropriations stovepiped approaches within the Department, 
within our respective agencies by putting a central fund at the 
department level that is managed through our Investment Review 
Board and strictly through our capital planning process and its 
rigors.
    It allows us to have the flexibility and the dynamic 
capability to respond to changes in the environment around us 
to be able to basically invest in a more strategic way to 
enable us to pick those initiatives that are going to be most 
beneficial the Department in achieving its mission and make 
sure those investments are proceeding ahead to benefit the 
whole Department and leverage that benefit across the 
organization instead of within a particular organization, 
within a particular program.
    Mr. Davis. Mr. Blanchard, in developing the Business 
Compliance Assistance One-Stop Initiative, to what extent are 
State and local government organizations participating up front 
in formulating the enterprise architecture?
    Mr. Blanchard. They have participated to a large extent up 
front. We are working with the National Governors Association 
as well as the States of Illinois, Washington and Mississippi 
to develop the concept at least as it will relate to some of 
their needs.
    To answer your question, they have participated 
significantly up front. I couldn't speak to the cost they have 
incurred but surely they have incurred some in their previous 
efforts in this area and in the attempt to integrate with this 
particular initiative.
    Mr. Holcomb. If I might add to that question from the 
Federal Council's Architecture Committee, there has been 
cooperation between NACO, the Federal and State CIOs on trying 
to harmonize the Federal architecture guidance with that which 
the States offer through NACO, so there has been some formal, 
higher level, architectural collaboration between NACO and the 
Federal CIO Council.
    Mr. Davis. Mr. Holcomb, can you put into context how GAO's 
EA maturity framework might fit in with the work of the 
Architecture and Infrastructure Committee and also, would you 
agree with GAO's recommendation that it be implemented 
throughout the Federal Government?
    Mr. Holcomb. First of all, we have piloted on a voluntary 
basis the use of that framework within the committee structure. 
We think it is a good framework. The one area I think we have 
had some discussion about is at what level do you apply that 
framework. You can apply it at the bureau level, you can apply 
it at the full agency level and it becomes more powerful as you 
raise it to the full agency level. I think it is a good 
framework, that we can use it on a voluntary basis to do self 
assessments, and I think it is a nice structure to use and 
potentially OMB might want to consider using aspects of that.
    Mr. Davis. Ms. Stouffer, what other factors besides EA do 
you consider essential to IT management reforms?
    Ms. Stouffer. Certainly enterprise architecture gives you 
an understanding of what your business looks like and what the 
aggregate businesses of the government look like. That enables 
you to identify opportunities for reform and improvement. I 
think also important is an exploration of the processes and the 
people that contribute to the critical success factors that are 
important to those lines of business and that not only 
information technology but processes and organizations or 
people are all considered in any solution that is proposed to 
close performance gaps, to improve productivity and to improve 
the service we deliver to the customer.
    Mr. Davis. Ms. Barnes, OPM is supporting, I believe, five 
of the President's Management Council selected e-gov 
initiatives, which together are designed to streamline the 
employment life cycle of the everyday Federal employee. How are 
you working as an agency to ensure that all these initiatives 
will be seamlessly interoperable with every other agency or 
department in the Federal Government?
    Ms. Barnes. We have an extremely active partner and 
stakeholder group that has been involved from the beginning 
when we started these initiatives. They are all contributing 
from the very beginning of defining the vision for each of 
these initiatives through the goals and objectives. Even though 
work is proceeding because we understand where all of these are 
headed, we continue to make sure the phrasing of this vision, 
the goals and objectives really does reflect the work that is 
being done. I think they are active and are very concerned 
about the results of these efforts really going to improve the 
whole H.R. process in the Federal Government.
    I think with the active involvement with our partners, both 
in the initial stages and as we continue through this process, 
that we will ensure it meets the needs of all our agencies.
    Mr. Davis. Just a general question to you all. What 
obstacles do you anticipate in completing the initiatives by 
the project deadlines in the E-Government Strategy Report?
    Ms. Callahan. One of the challenges that we are facing is 
from a management perspective dealing with cultural changes and 
particularly the incentives necessary for cross agency 
collaboration which I think has been echoed in a couple of 
instances here today.
    Incentives through the appropriations process would be 
extremely beneficial to help break down some of the existing 
barriers that promote the continued behavior and the cultural 
environment to do things within a program within a particular 
subcomponent, within a particular agency inside a department.
    One of our challenges is elevating that type of activity to 
an enterprisewide level so that we can all take benefit from it 
and be able to enjoy the rewards the particular effort brings 
forward and leverage the technology solutions and the lessons 
learned universally instead of reinventing the wheel over and 
over.
    Mr. Blanchard. I would echo Ms. Callahan's comments related 
to the institutional and cultural barriers that are probably 
the most transient. Surely there are some technical barriers 
that we face but the technology is there, whether it is in the 
private sector of across government and it has been applied, so 
we are continuing to draw on those best practices to overcome 
some of the technical barriers.
    With regard to the interagency organization, I think the 
key for us in developing our business compliance portal is to 
focus on businesses, not to create an ownership of this portal 
that is agency-based but that is government-based and with the 
focus being on the businesses that the portal serves. With us 
simply being the managing partner and not the ownership or the 
owner of this project, I think we are able to make sure the 
participating partners all have a shared ownership in this 
project.
    Ms. Barnes. I think what the e-gov initiatives are really 
about is transformational change which means not just an 
enhancement to what we have today but thinking about new ways 
of doing business. That can be a daunting task when you think 
about doing it especially in my area across the Federal 
Government. I think what is really important is that we 
understand how to deliver some results that we can see and 
appreciate the benefits they provide as a way of gaining 
momentum into the change process.
    I believe that starting and getting moving with some quick 
wins, especially in this 18 to 24 month timeframe is 
particularly important to establish momentum and get everyone 
understanding where this can go and how powerful it can be.
    Mr. Davis. Those are all the questions I have.
    Mr. Turner.
    Mr. Turner. One of the projects that was mentioned by Ms. 
Canales, I believe, is the Project SAFE COM. That is an effort 
to improve communications capability between Federal, State and 
local agencies, law enforcement agencies, to enhance public 
safety. It is a wireless system, as I understand?
    Ms. Canales. Yes.
    Mr. Turner. Is the Treasury the lead on that?
    Ms. Canales. Yes, sir, we are the managing partner for the 
Wireless Public Safety Initiative. We had our first pilot test 
of the wireless initiative with the 2002 Olympics where for the 
first time in Olympic history we had just two networks that all 
the various local, State and Federal enforcement and public 
safety communities use to share information. Normally there are 
hundreds of wireless networks up there, none of which talk to 
each other, none of which communicate, no interoperability, so 
we had a very successful run at the Olympics. We hope to 
proceed further.
    We are working out the goals with Mr. Forman and his team 
as we speak but the basic goal is to provide communication 
between local, State and Federal entities so that they can 
share case information.
    Mr. Turner. What are the Federal agencies working with you 
on that project?
    Ms. Canales. There are several. Treasury has several 
bureaus on the team, then we have the Department of Justice, 
FEMA, the Homeland Security team is on there. Those are our 
strongest partners right now.
    Mr. Turner. How do you share the cost of that project?
    Ms. Canales. That is the challenge. It is interesting that 
the technology seems to be the easy part in a lot of these 
instances. Several of the agencies have funding in their 2002-
2003 appropriations for wireless initiatives, however, we have 
to find ways to create program management offices where we 
share responsibility and funding. The sharing of resources has 
been the critical issue for the wireless initiative.
    Some agencies have more funding in their appropriations 
than others. Should they bear the brunt of the cost because 
they have the most funding, is that fair? Those are the types 
of questions we have to answer. Some agencies have structures, 
frequencies and staff that they have built for specific 
services to the public and what happens when we pool our 
resources and don't need as many people, products, services and 
resources. Those are some of the issues that we are tackling 
right now and we are in the midst of tackling those issues.
    Mr. Turner. Would that be the kind of project that could be 
funded through the E-Government Fund if there were actually 
money there to do so?
    Ms. Canales. Certainly. I think all of the 24 initiatives 
would qualify. I think in light of September 11th we are 
focusing on some more of the public safety type initiatives but 
in a way the E-Government Fund also should take a look at the 
underlying architecture and infrastructure and tools that we 
all use and we all need in order to progress.
    So there is value in funding the tools and standards we all 
need to use across government because a lot of us don't have 
them. We need those capabilities before we can expand to 
actually provide the services and products. Certainly public 
safety initiatives would be very high on the priority list.
    Mr. Turner. If you are trying to get cooperation say with 
the Department of Justice and you feel they are not willing to 
carry their fair share of this project and pay for their share 
of it but you know obviously they have to be a partner, who do 
you go to for help to encourage another agency to step forward 
and carry out their fair share, and who makes the final 
decision regarding the sharing that should and will take place?
    Ms. Canales. At the highest levels, we have cooperation. 
The Secretary of the Department of Treasury and the Attorney 
General for Justice fully support the sharing of resources. 
When the rubber meets the road is where we get into the 
trouble.
    We start with the program managers and we try to work it 
out at those levels. If that doesn't work, we have several 
methods in place. One, through my role in the Federal CIO 
Council, E-Government Coordination, we have a facilitation task 
order in place that the program managers and agencies can use 
for facilitation.
    It is a task order that helps program managers deal with 
the change management and the cultural issues. They do 2 and 3 
day sessions and get the various agencies in a room, focus on 
the goals and business requirements and try to get away from 
the ownership issues and cultural issues and focus on the right 
answer and how to get there.
    That has helped many of the initiatives move from that 
initial phase of this is what we want to do to this is how we 
do it. That is where we are with the wireless program right 
now. We have had two 1 day sessions of change management, 
cultural change, getting the partners together.
    A lot of the issues are simply learning to work together, 
crossing our agency boundaries, developing trust, figuring out 
how to share information securely, who owns what, who is 
responsible for what, data quality, those types of issues. So 
that mechanism seems to work well because it allows the team 
members to work it out as a team rather than having OMB and the 
Secretaries come in and you must, you must, you must. I think 
it helps for the team members to work it out on their own.
    Mr. Turner. Ms. Callahan, you mentioned the eligibility 
assistance on-line or gov benefits I guess it is called. How 
many agencies are involved in that?
    Ms. Callahan. We have a total of 11 partners who work with 
us. They range from the Veterans Administration to HUD, 
Agriculture, and a variety of others including Energy, not to 
leave anyone out.
    Mr. Turner. How do you get all those agencies to cooperate 
and work together?
    Ms. Callahan. Extensive facilitation. What we have done is 
establish through the business case our strategy and then 
working with the individual agencies that are all partners to 
identify their strengths. Some agencies have in-kind 
contributions where they may not have appropriation funding 
available but they have an expertise, a particular skill that 
we need for accomplishment of the objective, in which case they 
provide that resource to the project itself to achieve the 
goal.
    In other cases, it can be something as simple as in one 
instance we had a partner provide office equipment and some 
particular supplies that we didn't have. So we are leveraging 
it across the board ranging from actual appropriations and 
funding related resources to in-kind contributions through IT 
work force related activities and general management principles 
for program management efforts as a whole.
    Mr. Turner. I understand that effort was originally at the 
Department of Labor and now it is hosted on First Gov. Could 
you tell us how that change took place, what were the reasons 
for it and what benefits have been derived?
    Ms. Callahan. One point of clarification. With eligibility 
assistance on-line, the initial emphasis to do it at the e-
government level, architecturally speaking the early on 
business case planned it initially right up front to be hosted 
through First Gov. With that, we have been able to take 
advantage of the recent redesign and some of the new 
infrastructure investments that GSA has put in place for the 
current First Gov environment and as such, leveraging those 
resources and have been able to take advantage of their hosting 
facilities and plan to continue to build on their lessons 
learned and build on their investment through the Web content 
management services they are currently working on.
    Mr. Turner. You said there are 11 different agencies that 
have participated with this on-line portal. Do you find it 
difficult to get this done in a timely fashion when you have to 
work out agreements with 11 different agencies? Is this the 
type of project that if the funds were placed in the E-
Government Fund, this project could be carried out more 
efficiently than is being done with the sharing of resources 
that have to be agreed upon by the 11 agencies that 
participate?
    Ms. Callahan. Definitely the focus on being able to achieve 
the objectives of the initiative would be more streamlined if 
we could put our attention on accomplishing the goals of the 
initiative versus the facilitation of resources to be able to 
do the work.
    A central funding resource I think would help all 
initiatives, including eligibility assistance on-line in order 
to allow us to focus on getting the job done and basically 
break down the barriers we currently have in trying to identify 
resources to perform the work.
    Mr. Turner. Ms. Barnes, one of your initiatives you 
mentioned in your testimony is e-training. As I understand, it 
is designed to provide e-training services across government, 
correct?
    Ms. Barnes. I think it is designed to improve access to e-
training services across government. This is really not an 
attempt to recreate the wheel and go out and identify new 
training opportunities. What we are really trying to do is 
establish a one-stop so there is a common place all Federal 
Government workers can go to access some of the best training 
programs already in existence. To the extent we need to, we can 
create new ones but we believe there are a lot of good training 
programs already available. We are trying to simplify access to 
it, improve registration possibilities, and also establish the 
Federal Government as a single point of negotiating training, 
registration, licenses so that we are not paying for the same 
courses many times over.
    Mr. Turner. So your effort is really to collect in one 
place the e-training programs of the various agencies?
    Ms. Barnes. Yes, and make them available.
    Mr. Turner. Do you have any initiative to actively promote 
information technology training for Federal workers?
    Ms. Barnes. Absolutely. If we do not promote and do 
training, if you establish the best portal in the world and 
there is no one using it, it is not worth anything, it is 
meaningless.
    Mr. Turner. How are you accomplishing that?
    Ms. Barnes. It is part of our task plan. We are developing 
our road maps and detailed task plans to deliver each one of 
our initiatives. Part of every one of our initiatives is a 
communication, education and training module. In fact the 
approach we are using in all our initiatives is to come up with 
discrete pieces that will be delivered in phases so we can 
achieve earlier results for chunks of investment so we do not 
have to buy into the whole thing at once. Each one of these 
modules we are developing, we call usable modules. There is the 
education, training, communication and sales part of that.
    Mr. Turner. Do you envision your agency as being the 
central place where training of Federal workers for information 
technology will take place? Is that the way you view this 
effort?
    Ms. Barnes. I believe that training in the IT disciplines 
will be part of this, yes.
    Mr. Turner. Do you find that all other agencies of our 
government are looking to you to carry out this responsibility 
or do we have the various agencies of government with their own 
independent programs in this area?
    Ms. Barnes. Some have their programs and we have looked at 
them and are anxious to take advantage of them and provide the 
opportunities they have to other smaller agencies perhaps who 
do not have well developed e-training programs. That is the 
power of the initiative. Our partner group is very engaged in 
this and very supportive. There is really no conflict in that 
partner group about the idea of a one-stop training portal for 
the Federal Government.
    Mr. Turner. In your opinion, are we devoting sufficient 
resources to training in the information technology field for 
Federal workers?
    Ms. Barnes. I can only speak for my agency and we have that 
as a priority and we devote the resources we need to training 
people both in the IT community as well as in our program 
offices with the people we need to interact with to deliver 
business capability. Sometimes there is an awareness issue, 
especially in the IT security area. It is a well known fact 
that the IT security programs in the agencies rest on the 
program people to deliver it. The program people have to 
certify and accredit their systems. They have to be the ones 
that can say, yes, we have the right level of security for 
these systems.
    There is training throughout the organization in IT areas 
that has to occur. We are sensitive to that and we are actually 
trying to buildup that part of our program internally.
    Mr. Turner. Thank you, Mr. Chairman.
    Mr. Davis. Anyone want to add anything?
    Mr. Holcomb. Just a comment on training. We use an on-line 
training program for our IT security folks, 18,000 employees, 
and we have about 25,000 contractors, about 43,000 people use 
the on-line site today to do training. It is very efficient, 
you know who is taking the training, you know they have been 
certified. It is a very effective tool, particularly in IT 
security. I think it will benefit the agencies to use on-line 
training.
    Mr. Davis. Before we close, let me thank everybody again 
for attending this hearing. I want to thank our distinguished 
panel of witnesses and Mr. Turner for participating. I would 
also like to thank my staff for organizing it. I think we have 
learned a great deal and I look forward to continuing our work 
on these issues with my colleagues on this subcommittee.
    I am going to enter into the record the briefing memo 
distributed to subcommittee members. We will hold the record 
open for 2 weeks from this date for anyone who might want to 
forward submissions for possible inclusion.
    This hearing is closed.
    [Whereupon, at 4:12 p.m., the subcommittee was adjourned, 
to reconvene at the call of the Chair.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 85123.119

[GRAPHIC] [TIFF OMITTED] 85123.120

[GRAPHIC] [TIFF OMITTED] 85123.121

[GRAPHIC] [TIFF OMITTED] 85123.122

[GRAPHIC] [TIFF OMITTED] 85123.123

[GRAPHIC] [TIFF OMITTED] 85123.124

                                   - 

</pre></body></html>
